  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




              PUBLIC
             RELEASE


                 INTERNATIONAL TRADE
                      ADMINISTRATION

US&FCS Spain’s Leadership Has Improved
Operating Environment, But Some Program
           Activities Need More Emphasis

     Final Audit Report No. IAD-10593-8-0001 / July 1998




      Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                     Final Report IAD-10593
Office of Inspector General                                                                                                   July 1998

                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    Spanish Market . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    US&FCS Spain . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.        General Management and Organizational Issues . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                    A.    Business Information Center Creates
                          Efficient and Effective Operating Environment . . . . . . . . . . . . . . . . . . . . 6
                    B.    SCO Leadership Effects Positive Changes in Key Areas . . . . . . . . . . . . . 7
                    C.    Supervisory Oversight and Organizational Structure Should Be
                          Reevaluated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                    D.    Staffing Issues Require Management Attention . . . . . . . . . . . . . . . . . . . 10
                    E.    US&FCS Spain Faces Substantial Cost Increase Under ICASS . . . . . . . 12

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                        US&FCS Comments on Draft Report and OIG Response . . . . . . . . . . . 13

          II.       Program Activities and Performance Measurement . . . . . . . . . . . . . . . . . . . . . . 17
                    A.    Post Management’s FY 1997 Focus Was on
                          Internal Issues, Not Program Activities . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    B.    Advocacy Strategy is Driven by Interagency Effort . . . . . . . . . . . . . . . . 18
                    C.    Number of Success Stories is Low Compared to Other US&FCS Posts . 18
                    D.    Greater Focus is Needed on Identifying Opportunities for
                          Small and Medium-Sized Enterprises . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    E.    Market Research Needs Quality Improvements . . . . . . . . . . . . . . . . . . . 20
                    F.    Aggressive FY 1998 Events Schedule May Lack
                          Adequate Implementation Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                    G.    Individual Events Run Surplus, But Business Center Does Not Recover
                          Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    H.    “You Brief Us” Program Offers Questionable Benefits to U.S. Firms . . 22

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                        US&FCS Comments on Draft Report and OIG Response . . . . . . . . . . . 23
U.S. Department of Commerce                                                                                   Final Report IAD-10593
Office of Inspector General                                                                                                 July 1998

          III.      Internal Control Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
                    A.      Control Systems Meet Most Requirements of
                            Federal Managers’ Financial Integrity Act . . . . . . . . . . . . . . . . . . . . . . . 26
                    B.      Poor Service From the Embassy’s Budget and Finance Section Has
                            Negatively Impacted the Control Environment . . . . . . . . . . . . . . . . . . . . 27
                    C.      Procurement and Disbursement Controls Are Adequate With One
                            Exception . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                    D.      Insufficient Controls Are Maintained Over SCO’s
                            Travel Authorizations and Expense Vouchers . . . . . . . . . . . . . . . . . . . . . 28
                    E.      Physical Asset Controls Are Good Except for Vehicle Management . . . 28
                    F.      Controls Over the Imprest Fund Should Be Strengthened . . . . . . . . . . . . 29
                    G.      Department of State and ITA Operating and
                            Administrative Account Balances Differ . . . . . . . . . . . . . . . . . . . . . . . . . 29
                    H.      Account Balances in the TEMs Differ with Post Records . . . . . . . . . . . . 30
                    I.      Prior Year Unliquidated Obligations Should Be Reviewed . . . . . . . . . . 31

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
                        US&FCS Comments on Draft Report and OIG Response . . . . . . . . . . . 32

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . APPENDIX
Complete US&FCS Response to OIG Draft Report . . . . . . . . . . . . . . . . . . . . . . ATTACHMENT
U.S. Department of Commerce                                                       Final Report IAD-10593
Office of Inspector General                                                                     July 1998

                                   EXECUTIVE SUMMARY

Because Spain is a member of the European Union (EU), its economy is driven largely by the
Spanish government’s commitment to joining the European Monetary Union in 1999. To do so,
Spain must fulfill the convergence criteria specified by the Maastricht Treaty of 1992, which
established macroeconomic objectives that link EU countries. Spain is close to meeting the
objectives in each of the required areas, which include inflation, interests rates, deficit/GDP,
debt/GDP, and currency stability.

Spain’s economic viability is concentrated in a series of regional markets joined by two hubs:
Madrid and Barcelona. Most major business transactions take place around these two cities,
though industrial production is spread throughout Spain. The Spanish government at all levels
(national, regional, and local) has eased regulations and increased incentives in an effort to attract
foreign firms and investment.

The United States enjoys excellent bilateral relations with Spain. During 1996, the U.S.
achieved a $3.4 billion trade surplus with Spain, the result of $7.7 billion in exports to Spain and
$4.3 billion in imports from Spain. Yet, despite structural reform packages passed by Spain in
1996 and 1997, U.S. companies continue to face obstacles to doing business in Spain, including
higher import tariffs than European firms. Fortunately, however, U.S. products are usually
associated with a high level of technology and quality, and notable opportunities for American
firms exist in several industries.

The Department’s operations in Spain are carried out by the International Trade Administration’s
U.S. and Foreign Commercial Service (US&FCS). US&FCS maintains two offices in Spain, in
Madrid and Barcelona, and employs four foreign commercial officers and 15 foreign service
nationals (FSNs). In FY 1997, US&FCS Spain had an operating budget of $1.2 million.

The Office of Inspector General conducted a performance audit of US&FCS operations in Spain.
We have divided our findings into three broad areas: (I) General Management and Organizational
Issues; (II) Program Activities and Performance Measurement; and (III) Internal Control
Environment.

I.      General Management and Organizational Issues

Several recent actions indicate that US&FCS Spain management is committed to improving the
effectiveness and efficiency of the Department’s commercial operations in Spain. The physical
relocation to the new Business Information Center, a joint venture with the United States
Information Service and the Foreign Agricultural Service, resulted in a substantial cost savings
and an improved working environment. In addition, the Senior Commercial Officer’s leadership
has effected several positive changes. Since his arrival at the post in September 1996, US&FCS
Spain’s inter-agency relationships have been strengthened, program controls have been

                                                 -i-
U.S. Department of Commerce                                                                Final Report IAD-10593
Office of Inspector General                                                                              July 1998

reasserted, and strategic planning has been redesigned to target specific areas of opportunity in
the Spanish market.

Nevertheless, certain management areas need improvement. Foremost among these is US&FCS
Spain’s organizational structure, which fragments administrative responsibilities and the
supervision of staff assigned to duties in this area. The absence of a clear assignment and
supervision hierarchy for administrative functions hampers US&FCS Spain’s ability to support
its operations.

Several staffing issues should also be addressed. First, a lack of local language skills prevents
two of the four officers from performing extensive outreach. In addition, the post’s FSNs
regularly go long periods without receiving training in critical areas. This, along with a fear of
career stagnation, has resulted in less-than-optimal staff morale.

US&FCS Spain faces a substantial cost increase under ICASS.1 The magnitude of this increase
highlights the need for management -- both at the post and at US&FCS headquarters -- to remain
actively engaged in the ICASS process and to explore methods for reducing administrative costs.

II.     Program Activities and Performance Measurement

During FY 1997, post management focused primarily on internal matters due to perceived
problems related to the commercial staff and US&FCS Spain’s relationships with other agencies.
The lack of attention to program activities negatively impacted service provided to US&FCS
customers.

US&FCS Spain’s average of only one success story per staff member over the last two years
indicates that greater emphasis should be placed on generating and documenting success stories,
the primary performance measure for US&FCS. Partner organizations also suggested that
US&FCS Spain should do more to exploit opportunities for small and medium-sized firms in the
Spanish economy. In addition, market research reporting, particularly Industry Sector Analysis
and International Market Insight reports, require improvement to be a more effective trade
promotion tool.

US&FCS Spain has developed an aggressive events schedule for FY 1998, but could encounter
problems in implementing the large number of events due to uncertainty regarding who will
provide administrative support on these projects. Management should also develop a plan to
recover the operational costs of events held in the new Business Information Center. In addition,
the “You Brief Us” program, a fee-based program for American companies to voice their


        1
         The International Cooperative Administrative Support Services (ICASS) system was designed as a
replacement for the “FAAS” system, used by the State Department to allocate costs for services provided overseas.

                                                       -ii-
U.S. Department of Commerce                                                   Final Report IAD-10593
Office of Inspector General                                                                 July 1998

concerns, offers questionable benefits to U.S. firms; management should more clearly identify its
benefits and develop a pricing structure to legitimize the program.

Several agencies at the U.S. mission in Spain provide advocacy support to U.S. companies.
US&FCS Spain received high praise from other agencies for encouraging teamwork in this area
and producing a coordinated advocacy strategy for the U.S. mission.

III.    Internal Control Environment

After reviewing the post’s financial and administrative operations, we conclude that US&FCS
Spain should improve internal control systems to better meet the requirements of the Federal
Managers’ Financial Integrity Act of 1982 (31 U.S.C. 3512(b)). Although adequate internal
control systems are in place to document and record transactions and events and to ensure that
assets are generally safeguarded against waste, loss, unauthorized use, and misappropriation,
many controls should be strengthened. Improvement in the communication and information flow
between US&FCS and the State Department’s Budget & Finance (B&F) section is needed. B&F
officials confirmed that reporting services provided to the post in the past year have been
unsatisfactory. Escalating administrative costs under ICAAS increase the need for US&FCS
Spain to receive timely, high-quality service from B&F in order for management to quickly
address such cost issues.

We identified specific control weaknesses that need to be addressed in several areas: the
procurement process, imprest fund documentation, vehicle management, SCO travel documents,
reconciliations of operating and trade event account balances, and prior-year unliquidated
obligations. For example, we found significant differences between account balances recorded
by the State Department and ITA. We also found differences in trade account balances between
ITA’s Trade Event Management System and the post’s records.

                                   RECOMMENDATIONS

Our most important recommendations call for the Assistant Secretary and Director General of
US&FCS to:

1.      Develop an organizational structure for US&FCS Spain in which administrative
        responsibilities and lines of supervision are clearly delineated.

2.      Direct US&FCS Spain management to focus greater attention on program-related
        activities, including outreach, events, and market research reporting.

3.      Develop a strategy that increases international trade among small and medium-sized
        companies in accordance with the Department of Commerce strategic plan.


                                              -iii-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

4.      Provide the training and oversight necessary to ensure that market research reports
        represent high-quality products, and ensure that industry coverage is consistent with the
        “best-prospects” list, as required by US&FCS guidelines.

5.      Implement procedures to ensure that appropriate records regarding all accounting
        transactions are maintained, including summaries by event along with running balances of
        collections and expenditures.

                                            --------------

In responding to our draft report, US&FCS indicated general agreement with many of our
observations and conclusions. The actions planned or already taken by US&FCS should begin to
resolve many of our concerns. Where minor disagreements persist, they have been duly noted
and addressed by the OIG.

In her memorandum accompanying the response, the then-Acting Assistant Secretary and
Director General2 stated that the Senior Commercial Officer has addressed important managerial
problems and is now devoting more time to improving the delivery of export assistance programs
and improving internal controls. The Acting Assistant Secretary and Director General also stated
that there was no mention of the US&FCS Barcelona operation in the draft report. We note that
although we did not report separately on the Barcelona operation in our report, the performance
measures reported for US&FCS operations in Spain include those of Barcelona. In providing
market coverage for the Catalan region, US&FCS Barcelona is an extremely effective operation
under sound direction by the Commercial Officer. The Barcelona Commercial Officer has
developed strong relationships within the Consulate and in the business community, and
effectively motivates the commercial staff. Our complete recommendations, as well as a
summary of the US&FCS comments and the OIG response, appear on pages 13, 22, and 31.




        2
        Since we released the draft report, an Assistant Secretary and Director General has been
confirmed by the United States Senate.

                                                -iv-
U.S. Department of Commerce                                                  Final Report IAD-10593
Office of Inspector General                                                                July 1998

                                      INTRODUCTION

Under the authority of the Inspector General Act of 1978, as amended, and the requirements of
the Omnibus Trade and Competitiveness Act of 1988, the Office of Inspector General conducted
a performance audit of Department of Commerce operations in Spain. Our fieldwork was
conducted during December 1-5, 1997.

Performance audits are objective and systematic examinations of evidence for the purpose of
providing an independent assessment of an organization, program, activity, or function in order
to provide information to improve accountability and facilitate decision-making by parties with
responsibility to oversee or initiate corrective action. By identifying systemic strengths and
weaknesses, the OIG will help the Department’s managers, in this case those in the International
Trade Administration (ITA) and the U.S. & Foreign Commercial Service (US&FCS), implement
more efficient and effective operations to better serve the Department’s customers.

In the absence of the Ambassador to Spain, we discussed our observations with the chargé
d’affaires, and held an exit conference with the US&FCS SCO and the Regional Director for
Europe on December 5, 1997. During this conference, the SCO generally agreed with our
observations.

                              PURPOSE AND SCOPE OF AUDIT

The OIG is committed to the pursuit of operational effectiveness throughout the Department,
challenging management to achieve excellence with respect to programmatic, administrative, and
financial operations. The purpose of this performance audit was to evaluate the effectiveness of
the Department’s operations in Spain, which are carried out primarily through US&FCS Spain
offices in Madrid and Barcelona.

In accordance with the General Accounting Office’s (GAO) Assessing Internal Controls in
Performance Audits, we reviewed the agency’s internal control environment relating to
administrative and financial management. We conducted tests to achieve our objective of
determining the effectiveness of administrative and financial management controls.

We tested US&FCS Spain’s operations for compliance with the GAO Policy and Procedures
Manual for Guidance of Federal agencies, and the Federal Managers’ Financial Integrity Act of
1982. The report findings and recommendations draw upon significant tests of records; physical
evidence; documentary evidence, including accounting records and memorandums; and
analytical evidence based on data obtained. We also held interviews with US&FCS personnel,
multiplier organizations, and clients. We did not rely solely on computer-generated data to
support our findings. Our audit covered a review of programmatic, management, administrative,
and financial issues.


                                              -1-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

We reviewed the policies, procedures, and practices being implemented by US&FCS Spain to
determine whether it is successfully and efficiently meeting its mission: to assist U.S. companies,
particularly small and medium-sized enterprises, with export assistance. We also determined
whether US&FCS Spain’s goals and objectives are being achieved, and whether these goals and
objectives are in line with Department objectives. The audit evaluated the effectiveness and
efficiency of operations, and assessed the operation’s compliance with applicable laws,
regulations, and procedures.

In conducting our audit, we placed primary emphasis on the following areas:

        C       General management and organizational issues.

        C       Program activities and performance measurement.

        C       Internal control environment.

The audit also considered ITA headquarters and domestic office activities that are coordinated
with US&FCS Spain.3 The audit was conducted in accordance with Generally Accepted
Government Auditing Standards and was performed under the authority of the Inspector General
Act of 1978, as amended, and Department of Commerce Organization Order 10-13, dated May
22, 1980, as amended.



                                        BACKGROUND

SPANISH MARKET

Spain’s economic policy is driven by the Spanish government’s commitment to fulfill the
convergence criteria for the European Monetary Union (EMU) specified by the Maastricht Treaty
of 1992. The Maastricht Treaty established macroeconomic objectives that must be met by
countries entering the first tier of EMU. Spain has been making progress in each of these areas
and is in good position to join the first tier of countries in 1999.




        3
         The OIG discloses that two audit team members formerly worked for ITA; however, they had
no material involvement with US&FCS Spain operations.

                                                -2-
U.S. Department of Commerce                                                     Final Report IAD-10593
Office of Inspector General                                                                   July 1998



                                      EMU Convergence Criteria
                              Inflation   Interest Rates   Deficit/GDP    Debt/GDP
          Maximum Limit         2.7            9.0             3.0           60.0
          Spain 1997*           2.6            8.4             3.0           68.2

       * Source: Organization for Economic Cooperation and Development. Figures are estimates
based on 1996 data.


Spain and the United States enjoy excellent bilateral relations. During 1996, the U.S. achieved a
$3.4 billion trade surplus with Spain, the result of $7.7 billion in exports to Spain and $4.3
billion in imports from Spain. The U.S. trade surplus for 1997 was expected to decline slightly
to $2.9 billion. Major U.S. exports to Spain include pollution control and water resources
equipment, franchising, computers and peripherals, aircraft and parts, telecommunication
services, and electrical power systems. The U.S. ranks fourth among investor nations in Spain
after the Netherlands, France, and the United Kingdom. U.S. direct investment in Spain was
$1.3 billion in 1996.

Spain’s economic viability is concentrated in regional markets joined by two hubs -- Madrid and
Barcelona -- around which most major business activities occur. However, the Spanish
government at all levels (national, regional, and local) has eased regulations and increased
incentives in an effort to attract foreign firms and investment. Due to cultural and geographic
differences, each region has developed its own industrial characteristics. Madrid is Spain’s
center for banking and telecommunications. The Cataluna region, which includes Barcelona,
serves as an industrial base for textiles, chemicals, plastics, printing, and machinery
manufacturing. The region around Bilbao, an important port in Cantabria, contains extensive
shipyards, steelworks, iron ore mines, and oil refineries. Seville, in Andalucia, is a major source
of olive oil, wine, and other agricultural products.

Despite structural reform packages passed in 1996 and 1997, U.S. companies continue to face
obstacles to doing business throughout Spain, including higher import tariffs than European
firms. Fortunately, however, U.S. products are generally associated with a high level of
technology and quality, and notable opportunities for American firms exist in several industries.
As a result of EU grants, infrastructure investment will exceed $100 billion over the next 10
years. In addition, the Spanish government has initiated privatization projects in such key
sectors as oil, gas, power and energy, transportation, and construction/engineering.




                                                -3-
U.S. Department of Commerce                                                                 Final Report IAD-10593
Office of Inspector General                                                                               July 1998




              Portugal --------




US&FCS SPAIN

The Department’s operations in Spain are carried out by US&FCS through offices in Madrid and
Barcelona. During FY 1997, US&FCS moved its primary office in Madrid to the new American
Business Information Center (BIC), where it is co-located with the Foreign Agricultural Service
(FAS) and the United States Information Service (USIS). The commercial office in Barcelona is
located in the American Consulate.

In FY 1997, US&FCS Spain had an operating budget of approximately $1.2 million and
employed four foreign commercial officers and 15 foreign service nationals (FSNs) including
personal services contractors. Estimated costs for administrative support services under ICASS
were $330,000.4 Spain is ranked 19th worldwide out of 69 countries on the US&FCS Resource
Allocation Model, a management tool to guide decision-makers in allocating overseas resources.




        4
           The International Cooperative Administrative Support Services (ICASS) system was designed as a
replacement for the Foreign Affairs Administrative Support (FAAS) system, used by the State Department to
allocate costs for services provided overseas. During FY 1997, the system operated on a virtual basis to provide an
estimate of what ICASS charges would have been. In FY 1998, ICASS officially replaces FAAS.

                                                        -4-
U.S. Department of Commerce                                                                  Final Report IAD-10593
Office of Inspector General                                                                                July 1998




                                               $1.21M


                                                           $0.33M




According to materials distributed by the U.S. mission in Spain, US&FCS Spain supports U.S.
commercial interests in the United States and helps companies increase sales and market share.5
Specifically it (1) promotes the export of U.S. goods and services to strengthen the U.S.
economy, maintain job security, and create jobs; (2) protects and advocates for U.S. business
interests; (3) assists U.S. firms to realize their potential by providing counseling, overseas market
information, international contacts, and trade promotion vehicles; and (4) supports the export
promotion efforts of other public and private organizations, using partnerships to create a full-
service export development infrastructure.

US&FCS Spain is part of the “Showcase Europe” initiative. This initiative, managed by the
US&FCS posts in Europe, attempts to coordinate US&FCS efforts in order to approach Europe
on a regional basis and to move U.S. firms already exporting to one or more European markets
into additional markets. Therefore, much of US&FCS Spain’s strategic planning is designed to
implement the Showcase Europe initiative.




        5
            Collectively, the U.S. government agencies with a presence in Spain represent the “U.S. mission.”

                                                         -5-
U.S. Department of Commerce                                                     Final Report IAD-10593
Office of Inspector General                                                                   July 1998

                              FINDINGS AND RECOMMENDATIONS

During our audit, we found notable strengths in several areas. At the same time, we also
identified weaknesses. Management should address several areas of concern in order to increase
the quality and productivity of US&FCS Spain’s program. In addition, improvements in internal
controls are needed to ensure accurate recording of financial transactions and to safeguard assets.

We have categorized our findings and recommendations into three broad areas:

        C       General Management and Organizational Issues.
        C       Program Activities and Performance Measurement.
        C       Internal Control Environment.

I.      GENERAL MANAGEMENT AND ORGANIZATIONAL ISSUES

US&FCS Spain management has taken several notable steps to improve its work products and its
overall operating environment. The recent physical relocation of the Madrid office to the new
BIC has resulted in substantial cost savings and improved working conditions. In addition, the
SCO’s leadership has effected many positive changes, including strengthened interagency
relationships, better program controls, and planning that targets real areas of opportunity for U.S.
companies in Spain.

Several issues, however, require continued management attention. US&FCS Spain’s
organizational structure fragments administrative responsibility and supervision, and may lead to
weakened internal controls. We also identified areas of concern related to staffing. Two of the
four officers placed in Spain by US&FCS management possess limited Spanish language skills.
In addition, we believe that post’s management can take action to further improve morale and
increase training opportunities for the FSNs. Finally, US&FCS Spain faces a substantial cost
increase under ICASS, increasing the need for management to analyze its administrative
expenses.

A.      Business Information Center Creates More
        Efficient and Effective Operating Environment

US&FCS Madrid’s relocation in FY 1997 to the new BIC has resulted in substantial cost savings.
According to our calculations, the move will enable the office to save nearly $50,000 per year in
rent. It is worth noting that, due to the cost savings enjoyed by the agencies housed in the BIC
(US&FCS, USIS, FAS), and the “one-stop-shop” service available to clients through co-location,
the State Department OIG praised the initiative as “the biggest example of cooperation in the
mission.” We, too, commend US&FCS Spain for this cost-saving and service-enhancing
measure.


                                                -6-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

With the BIC’s close proximity to the embassy, US&FCS Spain has been able to maintain a close
connection with the staff and offices of other agencies. Commercial staff regularly walk to the
embassy for meetings with related agencies, and vice versa. In addition, US&FCS Spain’s co-
location with FAS and USIS has helped to eliminate the feeling and appearance of isolation that
reportedly plagued operations in the prior location. Clearly, the BIC has resulted in an operating
environment that is more pleasant for both US&FCS staff and its customers.

B.      SCO Leadership Effects Positive Changes in Key Areas

Upon the current SCO’s arrival in September 1996, he identified several operational areas that
required strengthening. We were advised that (1) US&FCS Spain’s working relationships with
some of the other embassy agencies were strained, (2) the staff did not consistently follow proper
clearance procedures, and (3) organizational planning did not involve the entire commercial staff.
We were pleased to observe that FY 1997 saw improvements in each of these areas.

Interagency Working Relationships Are Strong

Several of the agencies we interviewed at the post (e.g., State Department Economics and
Political sections, FAS) informed us that their relationships with US&FCS Spain have
significantly improved. The agencies gave much of the credit for their present relationships with
US&FCS to the SCO. According to representatives of these agencies, the SCO has fostered
interagency cooperation by encouraging their participation in large commercial projects, lending
support (both his and his staff’s) when needed, and “sharing credit” for major successes. Each of
these agencies, as well as the Ambassador’s office, praised both the SCO and the commercial
staff for their contribution to the country mission.

Program Controls Have Been Reasserted

The SCO has implemented procedures to control the review and distribution of program-related
documents. During FY 1996 and early FY 1997, the office was experiencing problems in this
area; specifically, substantive cables and letters were going forward without proper clearance
from an American commercial officer or other relevant embassy sections. This failure to follow
protocol resulted in criticism from other agencies, including the Chief of Mission’s office. The
SCO has corrected the problem by installing procedures that safeguard against the unchecked
distribution of key documents and ensure more effective quality control related to market
research reports. (For a more detailed discussion, see Section II.)

Effective Planning Guides Operations

Much of US&FCS Spain’s planning is driven by Showcase Europe, a regional initiative that
includes the identification of priority industry sectors for the European market. To meet these


                                               -7-
U.S. Department of Commerce                                                   Final Report IAD-10593
Office of Inspector General                                                                 July 1998

regional objectives, the SCO’s planning is focused on developing strategies to help U.S. firms
take advantage of market opportunities in those sectors. In addition, US&FCS Spain has targeted
sectoral opportunities in the local market. Specifically, the SCO’s strategy for FY 1998 is to
pursue areas in which the Spanish government has committed to heavy spending. These include
environmental technologies and transportation, which have received EU cohesion funding, as
well as military sales. Because this strategy targets definite areas of substantial Spanish
government spending, we believe the approach is an effective way of identifying real
opportunities for U.S. companies to benefit from US&FCS products and services.

As part of its planning process for FY 1998, US&FCS Spain held a two-day meeting of the entire
in-country staff. Other agency heads, including the Acting Chief of Mission, were also invited to
participate in portions of the conference. We found this initiative to be a positive means of
involving related agencies in US&FCS operations and allowing commercial staff to contribute
substantively to the planning process.

C.      Supervisory Oversight and Organizational Structure Should Be Reevaluated

Direct supervisory responsibilities are divided among the SCO and the other commercial officers
in a way that complicates US&FCS Spain’s reporting structure. In Madrid, the Deputy SCO
(DSCO) and the Assistant Commercial Attache share supervision of both administrative and
programmatic operations. As indicated in the current organizational chart (see Appendix 1), the
DSCO supervises most of the industry specialists and takes the lead in most administrative
functions, while the Assistant Commercial Attache supervises other industry specialists and
oversees some administrative activities and special projects. The office manager, an FSN,
officially reports directly to the SCO. Thus, the supervisory structure over the administrative
duties is fragmented. Figure 1 (next page) shows the current organizational structure for
US&FCS Spain.

In Madrid, four of the FSNs perform administrative functions. As the result of a recent
reclassification of duties, two of these FSNs now also perform trade promotion duties.
According to the SCO, the position reclassification was an attempt to broaden the scope of duties
and enhance career development opportunities. In the case of one employee, however, the
current structure and duty classification has resulted in divided supervisory authority.




                                               -8-
U.S. Department of Commerce                                           Final Report IAD-10593
Office of Inspector General                                                         July 1998

                                         FIGURE 1

                          Current US&FCS Spain Organizational Chart




                                             -9-
U.S. Department of Commerce                                                          Final Report IAD-10593
Office of Inspector General                                                                        July 1998

Our interviews disclosed that FSNs feel that authority over administrative functions is not clearly
structured. Some FSNs also complained that it was difficult to get administrative support for
their projects, it took an inordinate amount of time to obtain such support, and there was no
logical system in place to divide up administrative work. Thus, the current delineation of staff
responsibilities, while enhancing the potential career development of several employees, has
created resentment and conflict among members of the staff by not effectively ensuring that
administrative assistance is provided.

In the absence of a clear hierarchy to supervise and coordinate administrative duties, US&FCS
Spain — with a significantly increased trade events and promotion schedule in 1998 — may be
less able to support its operations effectively. By contrast, the administrative structure of a
well-organized Commercial Section should maximize the office’s ability to carry out its mission
of trade promotion as efficiently as possible. Management should strive to enhance the career
development of its employees, but in ways that do not negatively affect this mission.

D.      Staffing Issues Require Management Attention

Based on our review, including comprehensive interviews with US&FCS and embassy staff, we
identified a number of staff-related items that merit attention from both post and headquarters
management. These include the foreign language capabilities of the American officers, FSN
morale, and the training opportunities made available to the FSN staff.

Officer Language Skills Do Not Meet Expectations

Three of the four commercial officers in Spain have passed at least level 3 in reading and
speaking on the Spanish language test administered by the Foreign Service Institute (FSI).6
However, according to our interviews with the commercial staff, two of these officers do not
possess the Spanish language skills necessary to conduct a meaningful conversation with a
Spanish-speaking business person. Other members of the embassy staff confirmed that the
Spanish-speaking skills of these officers are marginal.

Passing the FSI language test provides little practical benefit if the officers are not able to
communicate effectively in the relevant foreign language. Although Spanish business people
generally speak some English, the absence of adequate language skills reduces the ability to


        6
         According to FSI standards, level 3 denotes general professional proficiency. For reading, this
means the officer should be “able to read within a normal range of speed and with almost complete
comprehension of a variety of authentic prose materials on unfamiliar subjects.” For speaking, this
means the officer should be “able to speak the language with sufficient structural accuracy and
vocabulary to participate in most formal and informal conversations on practical, social, and professional
topics.”

                                                  -10-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

perform outreach. This was confirmed by the statement by one of the low-fluency officers that
he does not perform outreach.

Because Spanish is not considered a difficult language to learn, US&FCS has not designated
Spain a “hard-language” post. The difficulty of placing an officer with the language skills to
communicate effectively in Spain is not as great as placing an officer in a hard-language
designated post, for example, China or Russia. While each of the commercial officers provides
commendable service in all other respects, their Spanish language skills should be improved to
enable them to perform more effective outreach activities.

FSN Staff Morale Needs Improvement

The FSNs in Spain generally agreed that the SCO has instituted positive changes since his
arrival, including a greater emphasis on industry sectors and improved communication between
management and staff. However, many of the staff interviewed raised common points of
frustration that impact morale.

At the operational level, most of the FSNs complained that, contrary to standard operating
practice, they were not allowed to travel to events in the U.S. or other Showcase Europe
countries for which they had successfully recruited corporate participants. The internship
program, through which US&FCS utilizes American college students for three-month stints to
assist with basic market research and report preparation assistance, caused additional criticism
from both the permanent staff and the interns. FSNs claimed that post management placed the
interns “on a pedestal,” while the interns complained that they did not feel integrated into
US&FCS Spain operations. The reported absence of training opportunities and the difficulty in
obtaining administrative support were also cited by the FSNs as areas of frustration.

Some of the more experienced FSNs expressed concerns regarding career growth. Though the
recent addition of programmatic duties to two formerly administrative personnel has provided a
hope that other personnel will also be reclassified in the future, a perception that management’s
focus is on the development of younger staff has prompted fears that job enhancement of older
FSNs is a low priority for post management. Specifically, senior FSNs criticized management’s
failure to fill a vacant FSN-11 (i.e., senior FSN) position for which they feel clearly qualified.
Both the SCO and US&FCS headquarters management stated that, in order to control the
agency’s FTE count at the time the position became vacant, the unwritten but universally
accepted practice was to replace vacant FSN positions with personal service contracts (PSC).
Thus, the SCO filled the senior FSN position with a lower level PSC.

While US&FCS Spain management is aware of some of the issues that are affecting FSN morale,
many of the steps it has taken are perceived by the FSNs to be ineffective. Though not yet at a
critically low level, worsening morale could reduce the staff’s motivation and hamper the ability
of US&FCS Spain to meet its objectives.

                                               -11-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

FSN Training Is Not Adequate

FSN training is not being provided on a regular basis; many FSNs have not received training for
a period of several years. Both trade specialists and administrative personnel perform a wide
variety of tasks that require regular training to develop and maintain skills. Virtually without
exception, officers and FSNs expressed the need to place a greater emphasis on training in order
to strengthen FSN skills. The following areas were specifically identified as desired training
areas: sector-specific training, time and project management, English writing, market research,
computer usage, and administrative operations. We were told by the staff that FSNs have gone
long periods without receiving training in any of these areas.

Although the FSNs generally appear to be performing their jobs well, we believe training would
enhance the quality of their work and increase productivity. Specifically, our team noted that the
English-writing skills of the FSNs were weak. Good management practices dictate that staff be
allowed to develop their skills and enhance their knowledge of areas for which they are
responsible. While US&FCS does provide some training to FSNs, the amount provided is often
limited by budget constraints. The absence of regular training for the FSNs hampers the
effectiveness of US&FCS Spain. For example, as discussed in the Program Activities and
Performance Measurement section, we reviewed several market research reports that read poorly
and contained obvious flaws in sentence structure.

E.      US&FCS Spain Faces Substantial Cost Increase Under ICASS

During FY 1997, US&FCS Spain paid $170,000 for administrative services under the Foreign
Affairs Administrative Support (FAAS) system. With ICASS officially replacing FAAS in FY
1998, the estimated ICASS charges for US&FCS Spain are $350,000, a one-year increase of
$180,000 in administrative costs. This represents approximately three percent of the total
amount of base funding transferred from the State Department to Commerce to cover the
worldwide cost increase under ICASS. Since Spain is only one of 70 countries that US&FCS
operates in and represents only 1.5 percent of the agency’s overseas budget, it would appear that
the ICASS cost increase may be disproportionately large.

The magnitude of this cost increase highlights the need for management to remain actively
engaged in the ICASS process. During our reviews of other US&FCS posts, we have found
uneven involvement in ICASS by commercial officers, which can lead to the posts paying
higher-than-necessary costs. By contrast, in Spain the commercial officer assigned to ICASS
spends considerable time analyzing and negotiating US&FCS’s ICASS charges. Other agencies,
including State, commended US&FCS for holding the service provider accountable without
compromising the cooperative spirit of ICASS.




                                               -12-
U.S. Department of Commerce                                                       Final Report IAD-10593
Office of Inspector General                                                                     July 1998

The commercial officer assigned to ICASS informed us that he has begun to negotiate US&FCS
Spain’s ICASS allocation based on the FY 1998 target budget. US&FCS needs to persistently
monitor its ICASS distribution and continue to explore ways to reduce its administrative costs.

                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General for US&FCS:

1.      Develop an organizational structure for US&FCS Spain in which administrative
        responsibilities and lines of supervision are clearly delineated.

2.      Establish clear lines of communication between the administrative employees and the
        commercial officer in charge of administrative functions to provide for effective
        coordination and monitoring of administrative staff time.

3.      Provide greater consideration to the practical foreign language abilities of officers so that,
        as much as possible, assigned personnel are language proficient and capable of
        performing effective outreach.

4.      As appropriate, take the necessary steps to identify and address issues that affect
        employee morale, including travel policy, the intern program, and administrative support
        for FSNs.

5.      Evaluate the training needs of the FSN staff, work with US&FCS headquarters to develop
        a program to satisfy those needs, and, if budget constraints are a problem, encourage
        creative training alternatives.

6.      Develop global and post-specific strategies for controlling ICASS costs, including active
        local participation by the post.

                                             --------------

US&FCS Comments on Draft Report and OIG Response

US&FCS Comment on Draft Report Recommendations 1 and 2:

US&FCS states that increased success stories in conjunction with the completion of core
activities indicate that post’s current administrative organization will not negatively affect the
quality of its performance. US&FCS notes, however, that the recent review and subsequent
reallocation of officers (effective in 1999) has eliminated the Assistant Commercial Attache
position. As such, the administrative reporting process will be improved to the extent that


                                                 -13-
U.S. Department of Commerce                                                       Final Report IAD-10593
Office of Inspector General                                                                     July 1998

administrative staff will in the future report to a single officer, the Deputy Senior Commercial
Officer.

OIG Response:

Without limiting the career development of any employee at post, we encourage post to continue
to clarify the roles and responsibilities of administrative personnel in order to ensure that the staff
time of all members is efficiently utilized.

US&FCS Comment on Draft Report Recommendation 3:

US&FCS confirms that both officers have achieved the required FSI 3/3 score. Despite this fact,
US&FCS states that the officers may require additional tutoring and in-country experience to
achieve proficiency. While both officers continue to receive supplemental language training to
improve their language skills, US&FCS asserts that post’s outreach efforts have not necessarily
been affected by the limited language skills of these two officers.

OIG Response:

We agree that US&FCS should take steps to ensure that supplemental foreign-language training
is provided to officers who have not reached a practical level of foreign-language proficiency.
Since a standard 3-year post assignment is brief relative to the time required to become proficient
in a foreign language, we also believe that US&FCS could more efficiently utilize its resources if
emphasis was placed on assigning officers who are already proficient in the applicable foreign
language.

US&FCS Comment on Draft Report Recommendation 4:

With respect to improving staff morale in general, US&FCS notes that a PSC in Madrid has been
converted to an FSN. With the exception of occasional FSN requests which could not be met
due to resource constraints, post is unaware of needed administrative support ever being denied
to FSNs. In addition to monitoring FSN workload, post is also cognizant that
unplanned/unchanneled requests made by FSNs could excessively burden the administrative
staff. With respect to trade missions and the additional workload they entail, US&FCS notes that
post has budgeted a contractor that works 3 to 4 weeks full-time on promotional and
administrative-related tasks. Post also has the assistance of full-time interns who can assist with
non-administrative work.

US&FCS states that post’s travel policy in support of International Buyer Programs (IBP) is fair
and consistent with US&FCS’s world-wide practice. According to US&FCS, a 15-company
threshold has been established for recruitment. Accordingly, a number of FSNs have
participated in IBPs in which free tickets and rooms were received, as recorded in the appropriate

                                                 -14-
U.S. Department of Commerce                                                   Final Report IAD-10593
Office of Inspector General                                                                 July 1998

Gifts & Bequests documentation. Regarding the two instances in which FSNs did not participate
in IBP travel, US&FCS notes that there was a timing conflict in one case and in the other the
FSN failed to recruit the requisite number of companies.

With respect to the internship program, US&FCS disagrees that special treatment has ever been
provided to the interns and states that it has managed the program according to Department of
Commerce guidelines. While all officers encourage staff to take advantage of the strong writing,
editing, and computer skills that the interns bring to the office, US&FCS states that some FSNs
in the past have been reluctant to utilize this additional resource. According to US&FCS, the
SCO is a strong supporter of the Department’s internship program because it offers women and
minorities an opportunity to observe first hand what a career in the Commercial Service can
offer. It is also an additional resource of competent and efficient personnel.         .

OIG Response:

To the extent that roles and responsibilities are defined and threshold requirements for IBPs are
clearly communicated to staff, we believe post has begun to address many of the points raised in
our recommendation regarding staff morale. We encourage post to continue to address areas of
concern to FSNs, administrative staff, and interns in order to further improve staff morale and
operational efficiency.

US&FCS Comment on Draft Report Recommendation 5:

According to US&FCS, post management believes that performance will almost always improve
when staff are provided with adequate training. US&FCS states that, while post has requested
headquarters-sponsored training for its FSNs on numerous occasions, training slots are limited
and all requests cannot be granted; e.g., post made six training requests in FY 1997, but no
employees were selected. US&FCS states that it will follow up with the Office of Foreign
Service Personnel to ensure that FSN training needs are given high priority for upcoming
sessions. With respect to field training, post management has volunteered the use of its
American Business Information Center (ABIC) as a training site for FSNs from Spain, as well as
other regional posts. Finally, the SCO has requested and will receive $6,500 for local computer
training to ease the transition to the new software system.

OIG Response:

The OIG is satisfied that actions planned or taken by US&FCS address the recommendation.


US&FCS Comment on Draft Report Recommendation 6:



                                               -15-
U.S. Department of Commerce                                                 Final Report IAD-10593
Office of Inspector General                                                               July 1998

US&FCS acknowledges that the switch from FAAS to ICASS has resulted in a larger than
desired budget increase for US&FCS Spain. Headquarters management reiterates that US&FCS
Spain is an active participant in the post’s ICASS management and review. According to
US&FCS, constant monitoring and review of ICASS cost centers led to a reduction in the fiscal
year 1998 ICASS budget of $17,437 (about five percent).

OIG Response:

We encourage the continuing efforts of the commercial officers at US&FCS Spain to reduce the
post’s local ICASS costs. Because the increase in administrative costs to US&FCS Spain under
ICASS is disproportionately large, the continued active engagement by both the post and
headquarters management is necessary to further reduce the financial administrative burden and
maximize the funds available for overseas program operations.




                                             -16-
U.S. Department of Commerce                                                         Final Report IAD-10593
Office of Inspector General                                                                       July 1998

II.     PROGRAM ACTIVITIES AND PERFORMANCE MEASUREMENT

In FY 1997, much of post management’s attention was focused on internal operating matters,
often at the expense of program activities. As a result, the trade promotion program was not as
effective as possible. One notable exception involved US&FCS Spain’s advocacy program,
which received praise from several agencies at post for its team-driven strategy.

We identified specific program areas needing improvement, including a greater focus on
developing success stories, better identification of opportunities for small and medium-sized
firms, and increased quality in market research reporting. The FY 1998 events schedule,
although aggressive compared to prior years, risks bottlenecks due to a lack of administrative
support. In addition, post management needs to develop some type of planning to recover costs
associated with events held in the new Business Information Center. Finally, US&FCS
management needs to develop a cost/benefit analysis and pricing structure to help legitimize the
“You Brief Us” program.

A.      Post Management’s FY 1997 Focus Was on Internal Issues, Not Program Activities

US&FCS Spain’s “program” activities were not the primary emphasis in FY 1997 due to
management’s focus on internal issues. Several perceived problems identified by the SCO
shortly after his arrival at post required the majority of his management attention. They included,
among others:

        C       A lack of coordination with other agencies at post.
        C       The commercial staff’s failure to respect embassy protocol.
        C       Insufficient education levels among the commercial staff and poor writing skills.
        C       Low staff morale.
        C       Instances of insubordination.

The SCO’s attempt to address these problems shifted attention away from US&FCS clients.7 As
a result, several areas related to the promotion of US&FCS products and services suffered.
Specifically, we found the office (1) generated a low volume of success stories, (2) identified few
opportunities for small and medium-sized companies, and (3) had poor market research quality
(each of these items are discussed in greater detail in subsequent sections).

Having made improvements in several of the internal areas, the SCO has focused greater
attention on program activities in FY 1998. The staff has been re-educated about the importance


        7
        The internal items are mentioned here only in relation to their effect on program activities.
The SCO’s positive resolution of several of these items is discussed in the sections on general
management and organizational issues.

                                                  -17-
U.S. Department of Commerce                                                                  Final Report IAD-10593
Office of Inspector General                                                                                July 1998

of success stories, a quality control program for market research reporting has been implemented,
and US&FCS Spain has embarked on an ambitious events schedule. We believe this program re-
prioritization will result in better client service in FY 1998 and more successes for U.S. firms.

B.      Advocacy Strategy Is Driven by Interagency Effort

Several agencies at the U.S. mission in Spain provide advocacy support to U.S. firms bidding on
Spanish government projects. According to the agencies we interviewed, although US&FCS
often takes the lead on these projects, it actively pursues the involvement of other agencies, such
as State Department Economic Section, USIS, and the Office of Military Sales. During our
review, US&FCS received high praise for encouraging teamwork in this area and helping to
prevent turf wars. During FY 1997, the charge d’affaires credited US&FCS with being the key
to a successful mission effort that resulted in a $750 million deal for Lockheed Martin.

The Spanish government’s commitment to spending on infrastructure development (estimated at
$100 billion over 10 years) should create some major opportunities for U.S. companies. Despite
a series of recent setbacks for U.S. firms competing for major Spanish projects, we believe the
interagency approach to advocacy supported by US&FCS appears to maximize the potential for
success for U.S. exporters.

C.      Number of Success Stories Is Low Compared to Other US&FCS Posts

The numbers and dollar values of US&FCS Spain’s success stories are summarized in the
following table. Success stories represent a record of export actions achieved by U.S. companies
in which US&FCS played a role.

                                        Success Stories Summary*

                                                     Number              Value
                        FY 1996                          14             $80 million
                        FY 1997                          17             754 million

                        FY 1998 (1st Qtr.)              12                2 million

        C       The success stories values in both FY 1996 and FY 1997 are heavily skewed by
                two large export actions. In FY 1996, one success story comprised 81 percent of
                the total value; in FY 1997, a single success story comprised 99 percent of the total value.

On average, the number of success stories achieved by US&FCS Spain in FY 1996 and FY 1997
equates to about one success story per non-administrative staff member. In contrast, US&FCS
Belgium and Portugal, which both have smaller staffs, generated four success stories per person

                                                      -18-
U.S. Department of Commerce                                                     Final Report IAD-10593
Office of Inspector General                                                                   July 1998

during the same period. In addition, the majority of US&FCS Spain success stories are reported
by only a small percentage of the non-administrative staff. Given these circumstances, we
believe US&FCS Spain has the resources in place to generate a greater number of success stories.


The SCO has acknowledged that success story volume is low, in part because of his focus on
resolving internal problems in the last year, but also because the impact of his leadership is not
reflected in the FY 1996 and FY 1997 numbers. However, several FSNs indicated that there is
no formal procedure in place for following up with clients on potential success stories. The ad
hoc manner of monitoring probably results in a lower number of success stories and may also
lead to under-reporting.

The US&FCS Operations Manual recognizes the importance of success story reporting as the
principal means of informing Department officials, the Congress, the Office of Management and
Budget, and the public of agency accomplishments, suggesting that management should
emphasize collection of information that helps justify the existence of the agency. Although the
manual provides guidelines as to how success story information is to be reported, each post
maintains responsibility for implementing an effective method to identify such stories.

We noted that US&FCS Spain recently implemented a new tracking system tied to commercial
library inquiries as a means of increasing the generation of success stories. The new system is
already paying dividends; in FY 1998 the office is on pace to nearly triple its number of success
stories over FY 1997. We believe increased management emphasis on success stories, as well as
the development of a standard follow-up procedure with clients, will enable US&FCS Spain to
continue to generate success stories at a higher rate.

D.      Greater Focus Is Needed on Identifying Opportunities for
        Small and Medium-Sized Enterprises

Small and medium-sized enterprises (SMEs) are not emphasized in US&FCS Spain’s strategic
plan, and there is little evidence to indicate that they are the focus of the office’s outreach
activities. By contrast, US&FCS promotional material states that the agency is committed to
increasing the number of U.S. firms, particularly SMEs, involved in international trade and that
many US&FCS export promotion products are designed specifically for SMEs. In addition, the
Commerce Department’s 1997 Strategic Plan states that one of ITA’s roles is to increase trade
assistance targeted to SMEs.

Although partner organizations that we met with praised US&FCS Spain for making business
information available, they suggested that the post was not taking advantage of significant
opportunities for SMEs. Rather than focusing directly on providing assistance to SMEs,
US&FCS Spain has identified sectors in the Spanish economy that are in line to receive heavy
government spending. It is predominantly larger firms that benefit from such large-scale

                                                -19-
U.S. Department of Commerce                                                     Final Report IAD-10593
Office of Inspector General                                                                   July 1998

projects. While we applaud this approach as a general strategy to promote opportunities for U.S.
firms, post management should also develop a plan to specifically help SMEs take advantage of
these opportunities.

E.      Market Research Needs Quality Improvements

Similar to other posts worldwide, US&FCS Spain generates, or assists in generating, the
following types of market research: Country Commercial Guides, Customized Market Analyses,
Industry Subsector Analyses (ISAs), and International Market Insights (IMIs). Our analysis of
US&FCS Spain’s market research reporting, particularly ISAs and IMIs, showed that some
reports contained incorrect sentence structure and misstated financial information.

According to the US&FCS Operations Manual, posts are responsible for selecting, producing,
and maintaining the quality of ISAs. The selection of ISA titles should draw primarily from the
broader “best-prospects” sectors identified in the post’s annual strategic commercial plan.
Several of US&FCS Spain’s recent ISAs fall outside the list of best prospects.

In many cases, English is not the native language of the FSNs who write these reports. In the
absence of training to enhance their English-writing skills, these reports are time consuming and
prone to inaccuracies. In addition, according to some of the staff, pressure to produce a large
number of IMIs has shifted the focus from quality to quantity in reporting. While poorly written
market research has no immediate impact on US&FCS operations, narratives that do not convey
clear messages will likely undermine the confidence of US&FCS clients who attempt to use the
market research information. In addition, by ignoring the parameters established for selecting
topical areas for some of its market research reporting, US&FCS Spain may have expended
valuable resources developing information for a clientele that does not exist.

While the SCO acknowledged past quality problems, he stated that these problems were being
resolved through a more critical review process. Additionally, in order to improve the quality
and substance of the market research, the SCO has directed FSNs to develop more specific
information on the procurement process within each of the best prospect sectors.

F.      Aggressive FY 1998 Events Schedule May Lack Adequate Implementation Support

US&FCS Spain has included many more trade activities on its schedule for FY 1998. Without
changing its communication equipment and standard operating procedures, the post could face
problems effectively managing and implementing this increased number of events.

The total number of trade event activities scheduled for the first half of 1998 (21) is almost twice
that for the same period in 1997 (11), and also covers a broader range of sectors. These include
the trade shows and trade missions that US&FCS Spain is supporting, as well as the International


                                               -20-
U.S. Department of Commerce                                                               Final Report IAD-10593
Office of Inspector General                                                                             July 1998

Buyer Program.8 Such increased productivity and sector coverage is commendable. However,
the dramatic increase in trade activity puts pressure on the post’s resources. Magnifying this
effect, the 1998 schedule includes significantly more trade shows, which tend to consume more
of each FSN’s time.

To avoid bottlenecks and provide a high level of service to event participants, improvement is
needed in both equipment and organization of operations. According to the staff, existing office
communication equipment (e.g., fax board insertions for computers and E-mail software), is not
sufficient to support the large volume of communication that takes places in preparing for trade
events. In addition, to the extent that no one is directly responsible for coordinating and
delegating administrative support, it is unclear how time-sensitive activities will be assigned.

G.      Individual Events Run Surpluses, But Business Center Does Not Recover Costs

During FY 1997, US&FCS Spain made collections in excess of event-specific expenditures on
all but one of its trade events. For most of these events, the surplus was less than $1,000,
indicating that the post was operating the events close to the cost recovery ratio mandated by
Department guidelines. However, US&FCS is not recovering costs associated with the event
space in the new Business Information Center.

According to federal regulations, events staged at a fixed federal facility should collectively
recover all the facility’s costs, including overhead. Using financial information provided by the
post, we determined that the total 1997 US&FCS cost of operating the BIC’s small event space
was approximately $19,000. During this period, US&FCS staged only three events in the BIC,
collecting a total of about $1,000.

Based on the BIC’s 1997 cost/revenue figures, the schedule of events held there is not sufficient
to enable US&FCS to fully recover the costs associated with the event space. To effectively
monitor the BIC’s cost recovery, post management should regularly perform a cost/revenue
analysis. In addition, to better match revenues and expenses, US&FCS should incorporate a
portion of the event space overhead into the pricing structure for each event held in the Center.




        8
            The International Buyer Program allows FSNs to recruit and accompany a delegation of prospective
importers, in this case from Spain, to a foreign trade show in which U.S. goods are exhibited.

                                                     -21-
U.S. Department of Commerce                                                      Final Report IAD-10593
Office of Inspector General                                                                    July 1998

H.      “You Brief Us” Program Offers Questionable Benefits to U.S. Firms

In conjunction with “Power-Gen ‘97 Europe,” a trade show for the energy sector held in Madrid
in June 1997, US&FCS Spain hosted a “You Brief Us” conference for U.S. firms participating in
the trade show. For a fee of $550, participating companies were given an hour to discuss
commercial issues with the US&FCS staff involved in Power-Gen. The US&FCS promotional
brochure states, “ ‘You Brief Us’ offers your company a rare opportunity to brief, exchange
views with, and explain your specific needs to 30 U.S. Embassy specialists and officers
representing markets across Europe, the Newly Independent Sates, and Northern Africa.”

“You Brief Us” is not a standard part of regional events. However, versions of the program have
been held during other Showcase Europe conferences. Although any U.S. firm is eligible to
participate, it is unclear what service or benefits these companies can expect in return for their
fee, other than the right to be heard. In addition, the commercial staff was unable to provide an
explanation of how the $550 fee was determined or a breakdown of what expenses the fee was
intended to cover.

To help legitimize this program, we believe US&FCS should (1) explain more fully in its
promotional materials what services a company can expect for participating in the program, and
(2) develop a pricing structure that clearly identifies the expenses that the participation fee
covers.

                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General for US&FCS:

1.      Direct US&FCS Spain management to focus greater attention on program-related
        activities, including outreach, events, and market research reporting.

2.      Establish a goal to increase success stories to a level that meets (or exceeds) the average
        for a post the size of Spain.

3.      Develop a strategy that increases international trade among small and medium-sized
        companies in accordance with the Department of Commerce strategic plan.

4.      Provide the training and oversight necessary to ensure that market research reports
        represent high quality products, and ensure that industry coverage is consistent with the
        “best-prospect” list, as required by US&FCS guidelines.

5.      Ensure that adequate resources in terms of equipment and administrative personnel are
        made available to accommodate the increased trade event activity.


                                                -22-
U.S. Department of Commerce                                                     Final Report IAD-10593
Office of Inspector General                                                                   July 1998

6.      Design a model to regularly perform a cost/revenue analysis of the Business Information
        Center to monitor costs associated with events held in the facility.

7.      Explicitly disclose the benefits that participants in the “You Brief Us” program can
        expect, and develop a pricing structure that clearly identifies the expenses covered by the
        participation fee.

                                            --------------

US&FCS Comments on Draft Report and OIG Response

US&FCS Comment on Draft Report Recommendation 1:

US&FCS reports that US&FCS Spain’s staff has made several outreach trips since fiscal year
1997, including export promotion trips to 12 of the 17 Spanish regions. The post is also
continuing its work with a local contractor to publish a “Doing Business in Spain Guide” for
distribution throughout Spain and to many key multipliers in the United States. In addition, in
fiscal year 1998, US&FCS Madrid is scheduled to complete eight events in Spain and support
numerous Showcase Europe events in Europe and the United States.

US&FCS Spain plans to complete the required ISAs, a respectable number of IMIs, and, by the
end of fiscal year 1998, detailed studies on most of the 17 Spanish regions. US&FCS
management is pleased with the increased level of programmatic activity, and the greater focus
on trade events and mission, several of which will prominently feature SMEs.

OIG Response:

As stated in our report, the OIG recognizes the increased attention devoted by US&FCS Spain to
program activities during fiscal year 1998. We commend US&FCS for aggressive planning in
this area and encourage the post, with the support of agency management, to continue to make
export promotion activities the office’s top priority.

US&FCS Comment on Draft Report Recommendation 2:

US&FCS and post recognize the importance of success stories and agree that the number of
success stories documented by post is on track to substantially increase in FY 1998. US&FCS
notes that the number of success stories has increased each year since the arrival of the current
SCO.



OIG Response:

                                                -23-
U.S. Department of Commerce                                                   Final Report IAD-10593
Office of Inspector General                                                                 July 1998

We commend US&FCS Spain for increasing the volume of reported success stories. However,
we believe post could further increase reported success stories by developing and transmitting to
FSNs clear (and mandatory) guidelines for monitoring and collecting success story information.


US&FCS Comments on Draft Report Recommendation 3:

US&FCS states that companies would like to come on trade missions to Spain but the cost is too
high. US&FCS Madrid is purchasing new furniture so that the configuration of the meeting area
in the BIC can be changed to accommodate more companies, allowing the events to be held in-
house and at a lower cost, hopefully making the package more attractive to companies. In
addition, in FY 1999 Valencia Spain will be the host to a major EU-organized partnering event
which is expected to include a delegation of American SMEs.

OIG Response:

We recognize that greater success in recruiting SMEs to participate in trade events and missions
in Spain is at least one part of increasing trade among such firms. To extent that US&FCS Spain
is able to enhance the event space in the BIC and attract more companies for trade missions, we
support their efforts. We also encourage US&FCS Spain to more vigorously promote events
targeted to SMEs such as the upcoming event in Valencia. However, to increase the focus of the
entire US&FCS Spain operation on identifying opportunities for SMEs, we believe the office
needs to incorporate and emphasize a targeted strategy for SMEs into its strategic plan.

US&FCS Comment on Draft Report Recommendation 4:

US&FCS states that post will focus on Industry Sector Analyses on the “Best Prospect List” and
those tasked under Showcase Europe starting in FY 1999. It will also ensure that its current
schedule of market research will be properly proofed for linguistic and factual accuracy.

OIG Response:

The OIG is satisfied that the actions planned or taken by US&FCS address the recommendation.

US&FCS Comment on Draft Report Recommendation 5:

US&FCS states that it is confident that the management expertise and resources to successfully
complete the FY 1998 event schedule. As a part of the worldwide effort to upgrade US&FCS
posts over the next two years, post’s computer hardware and software will be upgraded in the
summer of 1998.

OIG Response:

                                              -24-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

The OIG is satisfied that the actions planned or taken by US&FCS address the recommendation.

US&FCS Comment on Draft Report Recommendation 6:

US&FCS indicates that the post is purchasing different furniture for the BIC to allow for larger
missions to utilize the events space, for which the office plans to charge appropriately. However,
US&FCS points out that the cost of commercial space rental in Madrid is low, thus, the post
would only be able to charge a minimum fee to the participating companies.

OIG Response:

The OIG has already recognized the overall cost savings achieved by the BIC compared to the
former physical office location. We also commend US&FCS for establishing a practical and
cost-effective configuration for the BIC’s common event space. To avoid the possibility of
overcharging companies for leasing the event space, we suggest that US&FCS Spain conduct a
regular analysis of costs associated with operating the shared space versus the revenue generated
through in-house events. US&FCS Spain should attempt to recover as much of those costs as
possible through events held in the BIC.

US&FCS Comment on Draft Report Recommendation 7:

US&FCS states that management has developed some guidelines for posts to use in structuring
and promoting the “You Brief US” programs, which many participating companies have
applauded. Efforts to recruit such participants will be transparent and open to large firms and to
SMEs alike. Posts will be requested to structure these events on a cost recovery basis.

OIG Response:

The OIG believes that US&FCS has developed a plan to emphasize the benefits of the “You
Brief US” program to potential participants and to implement an appropriate pricing structure.




                                               -25-
U.S. Department of Commerce                                                                 Final Report IAD-10593
Office of Inspector General                                                                               July 1998

III.    INTERNAL CONTROL ENVIRONMENT

After reviewing US&FCS Spain’s financial and administrative operations, we concluded that
several improvements in the internal control systems would help US&FCS Spain to better meet
the requirements of the Federal Managers’ Financial Integrity Act of 1982 (31 U.S.C. 3512(b)).
The systems in place to document and record transactions and events and to ensure that assets are
safeguarded against waste, loss, unauthorized use, and misappropriation are generally adequate
but should be strengthened.

Especially needed is an improvement in the communication and information flow between
US&FCS and the State Department’s Budget & Finance (B&F) section. B&F confirmed that
services provided to the post in the past year have been below expectations. With the
implementation of ICAAS, administrative costs to the post will escalate, increasing the need for
US&FCS Spain to remain actively engaged and to ensure that the services provided by B&F are
timely and of high quality. Controls should also be strengthened over the procurement process,
imprest fund documentation, vehicle management, SCO travel documents, reconciliations of
account balances, and prior year unliquidated obligations.

A.      Control Systems Meet Most Requirements of
        Federal Managers’ Financial Integrity Act

US&FCS Spain has established adequate internal control systems to comply with most
provisions of the Federal Managers’ Financial Integrity Act. Systems are in place to document
and record transactions and events and to ensure that assets are safeguarded against waste, loss,
unauthorized use, and misappropriation. Management has separated key duties and
responsibilities in authorizing, processing, recording, and reviewing transactions among key
individuals, with minor exceptions. Other than the SCO signing his own travel authorization and
reimbursement vouchers, no one individual is solely responsible for a single transaction.
However, the organizational structure does not provide clear lines of supervision regarding the
officer(s) who approve these activities, and the actual assignment of these activities has not been
well communicated to the staff.

In addition to US&FCS management establishing good internal controls over transactions, a
number of internal accounting and administrative controls over the post’s financial and
administrative activities are provided by the State Department’s B&F section and its General
Services Office (GSO).9 GSO staff have established good internal controls over the procurement
process, including updating inventory records when goods are received and conducting periodic


        9
           Although we did not audit the State Department’s internal control systems, we conducted a review of the
control elements in the B&F and GSO offices that affect US&FCS operations. The internal controls provided by
these offices impact the overall control environment related to many US&FCS functions, including procurement.

                                                       -26-
U.S. Department of Commerce                                                      Final Report IAD-10593
Office of Inspector General                                                                    July 1998

verification of post inventory items. In instances when US&FCS Spain inappropriately identifies
specific vendors on a purchase order, GSO staff will obtain competition for the item. GSO and
B&F have controls over the procurement and payment cycle to ensure that appropriate reviews
and authorization signatures are on purchase orders and other documents. However, as discussed
below, we noted a weakness in the application of this internal control.

B.      Poor Service From the Embassy’s Budget & Finance Section
        Has Negatively Affected the Control Environment

The Budget and Finance (B&F) section provides financial management services and maintains a
system of internal controls over post transactions. While the control environment is generally
adequate, controls should be strengthened in a number of areas, including communication and
information flow. B&F has not always provided timely, high-quality service to US&FCS Spain.
As a result, US&FCS Spain has been unable to monitor the current status of post fund balances.

We discussed the situation with B&F senior staff, who confirmed that they have not been
providing adequate services to US&FCS Spain. B&F staff attributed the poor service over the
past year to several factors, including the resignation of several key staff members, an employee
taking extended sick leave, and the section’s attention being diverted to preparations for a
Presidential visit.

C.      Procurement and Disbursement Controls Are Adequate With One Exception

Although procurement controls at post generally were good, one control was not properly
applied. We found that B&F had not updated its list (effective February 1997) of authorized
approving officers for the following sub-activities in the procurement process: ordering,
receiving, certifying, and approval for payment. For all the sub-activities the following American
officers were authorized:

        <       Current SCO.
        <       Former DSCO.
        <       Current Assistant Commercial Attache.

The former DSCO left the post and was replaced by the current DSCO during FY 1997. The
authorized signature list had not been updated to reflect this change. The post is small enough
that the B&F section can recognize all the American officers. However, with the numerous
personnel changes at B&F, a sound internal control structure requires a current list of authorizing
officials and a procedure to verify that officers have the authority to initiate procurement actions.




                                                -27-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

D.      Insufficient Controls Are Maintained Over SCO’s
        Travel Authorizations and Expense Vouchers

The SCO approves his own travel authorizations and reimbursement vouchers for payment. In
reviewing travel files at B&F, we found nothing to indicate improper use of travel funds.
However, the lack of an outside review and approval of the SCO’s travel authorizations and
reimbursement vouchers is an internal control weakness.

The SCO told us that such self-approval is standard practice throughout US&FCS posts. Our
reviews of other posts and interviews with commercial officers indicate that it is not standard
procedure. With the widespread use of faxes and modems to transmit data, obtaining a
supervisory approval or blanket travel orders in advance would not be burdensome and would
contribute to a stronger control environment.

E.      Physical Asset Controls Are Good Except For Vehicle Management

The post has established proper physical asset management procedures to ensure that assets are
safeguarded against waste, loss, unauthorized use, and misappropriation. Record systems are in
place to track inventory and use of vehicles. Management has the inventory log updated by GSO
each time procurements are received and invoices paid. However, while some records are kept
for vehicle usage, the vehicle management system should be improved.

US&FCS requires that posts with vehicles keep a log that records official and personal use, and
US&FCS staff must reimburse the government for all personal use of a vehicle. We reviewed
the log maintained for US&FCS Spain’s vehicle in Madrid. The log did not explicitly show
personal use of the vehicle and recorded only the ending kilometer for each trip. Since no
beginning kilometer reading was shown, we reasoned that subtracting the ending kilometer
reading from the previous ending kilometer reading would give total trip distance. Instead we
found huge differences in kilometers driven for trips to the same destination. For example:




                                               -28-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

                               Trips from Madrid to Ifema and Return

                   Date of        Trip Ending      Previous Trip     Kilometers
                    Trip           Odometer       Ending Odometer      Driven
                    3/7/96           7375              7358               17
                   6/12/96           9393              9360               33
                    7/1/96           9673              9532              141
                   11/5/96          14304              14279              25
                  11/22/96          14763              14723              40
                   illegible        16549              14763            1786

From the analysis above, we conclude that post is not accounting for all the kilometers the
vehicle has been driven, and the risk of personal use of the vehicle is high.

F.      Controls Over the Imprest Fund Should Be Strengthened

As a general practice, US&FCS Spain disbursed many trade event payments from the petty cash
fund, including payments to translators. The office manager said that the practice was limited to
vendor expenses under $500, and that both the office and the vendors prefer this method of
payment because it takes B&F a long time to obligate, liquidate, and disburse checks. We
reviewed several disbursements for expense payments for translator expenses. All of the
invoices were copies of originals. The invoice copies had minimal information regarding the
vendor, only the vendor name and a brief description of the services rendered. Generally there
was no telephone number or address of the person providing the service. The invoice copy was
not marked in any manner as having been paid. While use of the imprest funds may be an
economical alternative, under the current system, the invoices accepted by the post and B&F are
inadequate.

G.      Department of State and ITA Operations and
        Administrative Account Balances Differ

Our review of official records disclosed a measurable difference in the operations and
administrative (O&A) account balance reported by ITA and the State Department. During our
review of FY 1997 account balances, we initially identified a total difference of nearly $500,000
between ITA and State accounting data for expenditures.




                                                -29-
U.S. Department of Commerce                                                                       Final Report IAD-10593
Office of Inspector General                                                                                     July 1998

                       Reconciliation of State and ITA Accounting Data (FY 1997)

                        Expenditure         ITA Balance          State Balance       Difference

                            O&A              $1,706,454           $1,208,520          $497,934


For O&A, the ITA account balance includes American officer salaries and benefits, while State’s
does not. When the $417,000 in American officer salaries and benefits is subtracted from the
ITA total, the adjusted difference is $80,934. We were unable to determine the reason for the
final difference. With such a discrepancy in account balances between State and ITA records,
ITA may be relying on inaccurate data to manage its overseas posts. ITA needs to reconcile its
account balances and determine the reasons for significant discrepancies.

H.          Account Balances in the TEMS Differ with Post Records

Our review of records disclosed differences between account balances reported by the post and
US&FCS Washington’s Trade Event Management System (TEMS) for collections. We
identified a net difference of approximately $9,300 between post and TEMS data for FY 1997
trade event overseas collections.

                                    Reconciliation of Post and TEMS Data
                                   Trade Event Cash Collections (FY 1997)

 Event                                Collections per Post        Collections per TEMS               Difference

 Gold Key                                          $8,300.00                     $7,750.00                   ($550.00)

 Infrastructure Seminar                              7,475.00                     7,475.00                         0.00

 State of Colorado                                   6,200.00                     6,200.00                         0.00

 Tecma 96                                            2,235.00                     2,235.00                         0.00

 Post-Initiated Events                               6,313.86                     6,067.86                    (224.00)

 FITUR 97                                            1,550.00                     1,550.00                         0.00

 BIT 97/Travel and Tourism                         no record a                    5,500.00                    5,500.00

 Publications                                     no record b                     4,600.71                    4,600.71

     Total                                                                                                   $9,326.71

        a
            No one at post had any knowledge of this event.
        b
            While there was no cumulative total in the post records, weekly cash reports included the collections from
            this activity.



                                                          -30-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

While the minor differences are likely the result of rounding or timing differences, the bulk of
the discrepancy stems from the fact that post did not have any collection records for two of the
events. The Office of Trade Event Management indicated that one of the events (BIT 97) may
have been misrecorded in TEMS. Nonetheless, as a result of differences in account balances
between post and TEMS records, US&FCS may be relying on inaccurate data to oversee its trade
events at foreign posts. US&FCS Spain needs to reconcile its trade event account balances with
TEMS department records and determine the reason for the significant differences.

I.   Prior Year Unliquidated Obligations Should Be Reviewed

The O&A accounts show unliquidated balances of $4,000 for FY 1995 and $16,315 for FY 1996.
The $4,000 balance obligated in FY 1995 is from a series of travel advances given to a former
employee in Barcelona. According to a memo from this employee to the US&FCS office
manager in Madrid, four travel vouchers that collectively account for the $4,000 were submitted.
However, neither US&FCS Spain nor the B&F office had a copy of the vouchers. The post
should take action to obtain and/or file a proper travel claim and liquidate the appropriate amount
from this long-standing obligation.

The bulk of the $16,315 obligated in FY 1996 as office furnishings is actually related to furniture
costs associated with the current SCO’s residence. According to the office manager, US&FCS
Spain has not yet received a bill for the furniture and they expect US&FCS headquarters to
handle the expense. The post should review these transactions, identify the appropriate source of
funds, and take action as to resolve these obligations.

                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General for US&FCS:

1.      Require US&FCS Spain to report on the quality and timeliness of financial and
        administrative services provided by the embassy and, if service standards are not met,
        take action to remedy the situation or identify alternative service providers.

2.      Update the list of American officers who have authority to initiate procurements.

3.      Redesign the vehicle log so that all kilometers driven are accounted for, and ensure that
        personal use of the vehicle is properly documented and appropriate costs are reimbursed
        to the government.

4.      Require the SCO to submit all travel authorizations and reimbursement vouchers to an
        appropriate supervisor for review and approval.



                                               -31-
U.S. Department of Commerce                                                    Final Report IAD-10593
Office of Inspector General                                                                  July 1998

5.      Require invoices submitted for imprest fund reimbursement to clearly identify the
        vendor’s business address and telephone number, include a detailed description of the
        service provided, and be promptly marked as paid.

6.      Implement procedures to ensure that appropriate records regarding all accounting
        transactions are maintained, including summaries by event along with running balances
        of collections and expenditures.

7.      Ensure that internal records are periodically reconciled to B&F and State Department
        reports to ensure that all transactions generated at post are being captured in the RAMC
        reports.

8.      Implement procedures to ensure that unusual items, such as obligations that remain
        outstanding for more than two years, obligations occurring outside the year of
        expenditure authority, or disbursements occurring two or more years after the
        establishment of the obligation, are identified and investigated.

9.      Implement procedures to ensure that post trade event collection and expenditure data are
        reconciled with OTEM’s financial records.

                                           --------------

US&FCS Comments on Draft Report and OIG Response

US&FCS Comment on Draft Report Recommendation 1:

According to US&FCS, through post’s active involvement in ICASS, it closely monitors the
quality and timeliness of the service providers. The post plans to report deviations from ICASS
standards to the Council as well as to headquarters.

OIG Response:

In addition to the actions already planned or taken, US&FCS Spain should consider following up
its reporting on deviations from ICASS standards by engaging other agencies in developing
strategies to increase service quality and, in the absence of noticeable service improvement,
exploring alternative providers.

US&FCS Comment on Draft Report Recommendation 2:

US&FCS states that post has updated the list of American officers who have authority to initiate
procurement.


                                               -32-
U.S. Department of Commerce                                                     Final Report IAD-10593
Office of Inspector General                                                                   July 1998

OIG Response:

The OIG is satisfied that the actions planned or taken by US&FCS address the recommendation.

US&FCS Comment on Draft Report Recommendation 3:

US&FCS states that post has redesigned the log to ensure that it complies with US&FCS’
requirements. Each time the staff members use the car, they must document kilometers at the
start and end of each trip. The type of use (official or personal) is also noted. The Assistant
Commercial Attache has been instructed to review the log quarterly.

OIG Response:

The OIG is satisfied that the action planned or taken by US&FCS address the recommendation.

US&FCS Comment on Draft Report Recommendation 4:

US&FCS states that the Department of State has been contracted under ICASS to provide local
management and fiscal oversight. All vouchers, including purchase orders, disbursements, travel
requests, travel vouchers, etc., are examined and require the approval of the B&F officer, the
GSO and/or the Administrative Counselor. This relationship between the agencies represented at
post and the Department of State is not unique to Commerce, but is also followed by the other
agencies.

US&FCS argues that if there is a need to make improvements on management oversight or fiscal
practices, these should be addressed system-wide and not on a post-by-post basis, as they are
generic in nature and carried out throughout the world by all or many US&FCS posts. For
example, all travel requests require the signature of the B&F officer for approval and certification
that the funds are available and not in violation of anti-deficiency regulations. It would be
impractical to require that a US&FCS headquarters officer approve travel requests due to
difference in time, long distance, etc.

US&FCS states that travel vouchers presented after travel has been completed are presented to
post administrative authorities for review and approval. The B&F officer or, in his/her absence,
the Administrative Counselor reviews and approves vouchers - all vouchers - not just the SCO’s
for payment. According to US&FCS, the procedures followed by US&FCS Spain are standard
and do not violate in any way the US&FCS Operations Manual or the Foreign Affairs Manual.




                                               -33-
U.S. Department of Commerce                                                      Final Report IAD-10593
Office of Inspector General                                                                    July 1998

OIG Response:

Section 301-1.101(3) of the Federal Travel Regulations states, “Travel-authorizing officials shall
authorize or approve only that travel necessary to accomplish the agency mission in the most
effective and economical manner. Authorizing officials should be aware of travel plans...and
shall ensure appropriate consideration of the need for the travel, the use of travel substitutes, and
the most cost-effective routing and means of accomplishing travel.”

In the case of the SCO’s travel documentation, we are not persuaded that such a review is taking
place. Although the B&F officer in Spain signs each of the travel documents, the OIG found that
the extent of his review is nothing more than a determination that funds are available to cover the
amount on the voucher. It does not constitute “management” approval of the travel being
considered from an agency-mission perspective, as required by the Federal Travel Regulations.
The separation of duties standard is a standard business practice endorsed by the GAO in Report
OP-4.1.4, Assessing Internal Controls in Performance Audits. It is necessary to ensure an
adequate internal control environment that someone other than the traveler provide this review.

As stated in our report, we found nothing to indicate improper use of travel funds. In addition, it
may be impractical to require that a US&FCS headquarters officer approve all individual travel
requests. However, we continue to recommend that action be taken to ensure a proper review
and approval of the SCO’s travel documents. Though US&FCS states that the signature of the
B&F and/or Administrative Counselor on the SCO’s travel documents are standard world-wide,
we have found the nature of their review to be inconsistent. For example, in other OIG reviews
(e.g., South Korea and Japan) we found that the SCO’s travel documents were properly reviewed
and analyzed by either the DCM or the Administrative Counselor, not simply certified by the
B&F officer that funds were available. Therefore, we recommend that the SCO at US&FCS
Spain submit his travel documents to an appropriate authorizing official--such as the
Administrative Counselor or the DCM--for a proper review as required by Federal Travel
Regulations.

US&FCS Comment on Draft Report Recommendation 5:

US&FCS states that invoices similar to those mentioned in the report were immediately adjusted
to contain more details in accordance with the OIG’s recommendations.

OIG Response:

The OIG is satisfied with the action taken and encourages US&FCS to include similar pertinent
information on future invoices.




                                                -34-
U.S. Department of Commerce                                                   Final Report IAD-10593
Office of Inspector General                                                                 July 1998

US&FCS Comment on Draft Report Recommendation 6:

US&FCS states that a new system has been implemented to summarize collections for
publications. US&FCS notes that all collections for publications are duly noted in the Weekly
Collections Report. In the meantime, apart from the individual event collection logs already in
place, the Event Expense Worksheets for the events have also been adjusted to reflect the current
status of collections.

OIG Response:

The OIG is satisfied that the actions planned or taken by US&FCS address the recommendation.

US&FCS Comment on Draft Report Recommendation 7:

US&FCS states that problems with the B&F section are now under control and the new financial
technician assigned to the US&FCS accounts is working much more closely with the post’s staff.
US&FCS Madrid reconciles the internal records the internal records with the RAMC reports on a
regular basis and queries any discrepancies immediately.

OIG Response:

The OIG is satisfied that the actions planned or taken by US&FCS address the recommendation.

US&FCS Comment on Draft Report Recommendation 8:

US&FCS states that the only 1995 obligation for $4,000 has been settled, with the support of
US&FCS/OIO. The employee in question issued a check to cover a small outstanding balance
and all amounts have now been liquidated.

As far as the post can tell, there were only four unliquidated 1996 obligations in the O&A
account, one of which has already been deobligated. The other three unliquidated obligations
deal with furniture for the SCO’s residence. In line with standard practice, the order was placed
through GSO to GSA suppliers in the U.S. US&FCS states that the office in Madrid has
inquired on several occasions if anything can be done to expedite payment and has been advised
by GSO that charges of this nature can take an inordinate length of time and that GSO cannot
speed up the billing process. However, US&FCS states that US&FCS Madrid will adopt a more
assertive role in the monitoring of unliquidated balances of prior-year funding.

OIG Response:

The OIG is satisfied that the actions planned or taken by US&FCS address the recommendation.

                                              -35-
U.S. Department of Commerce                                                Final Report IAD-10593
Office of Inspector General                                                              July 1998

US&FCS Comment on Draft Report Recommendation 9:

US&FCS states that collection — as opposed to expense — reports are rarely reconciled with
other documentation and notes that the post does not and never has received copies of OTEM
reports held in Washington. Arrangements will be worked out with the appropriate office in ITA
to have copies of the TEMS reports forwarded to US&FCS Madrid on a regular basis to ensure a
timely monitoring or collections.

OIG Response:

The OIG is satisfied that the actions planned or taken by US&FCS address the recommendation.




                                             -36-
U.S. Department of Commerce                                                 Final Report IAD-10593
Office of Inspector General                                                               July 1998

                                         APPENDIX

                                          Acronyms

                 B&F          Budget and Finance Office (State Department)
                 BIC          Business Information Center
                 DSCO         Deputy Senior Commercial Officer
                 ECON         Economics Section (State Department)
                 EMU          European Monetary Union
                 EU           European Union
                 FAAS         Foreign Affairs Administrative Support
                 FAS          Foreign Agricultural Service
                 FSN          Foreign Service National
                 GAO          General Accounting Office
                 GSO          General Services Office
                 ICASS        International Cooperative Administrative Support Services
                 IMI          International Market Insight Report
                 ISA          Industry Sector Analysis
                 ITA          International Trade Administration
                 O&A          Operations and Administrative
                 POL          Political Section (State Department)
                 SCO          Senior Commercial Officer
                 SME          Small and Medium-Sized Enterprise
                 TEMS         Trade Event Management System
                 US&FCS       United States and Foreign Commercial Service
                 USIS         United States Information Service
